;
i

APPENDIX A

4*

:•

(1 of 10)
Case: 18-30162, 03/10/2021, ID: 1203Q431, DktEntry: 74-1, Page 1 of 6

NOT FOR PUBLICATION

FILED

UNITED STATES COURT OF APPEALS

MAR 10 2021

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

UNITED STATES OF AMERICA,
Plaintiff-Appellee,

No. 18-30162
D.C. No. 2:16-cr-00320-RSM-l

v.

ROBERT STANARD,

MEMORANDUM*

Defendant-Appellant.
Appeal from the United States District Court
for the Western District of Washington
Ricardo S. Martinez, District Judge, Presiding
Argued and Submitted September 4, 2020
Seattle, Washington
Before: BYBEE and COLLINS, Circuit Judges, and SOTO,** District Judge.
Robert Stanard appeals his conviction, after a jury trial, for being a felon in
possession of a firearm (Count One), 18 U.S.C. § 922(g)(1); being a felon in
possession of ammunition (Count Two), id.; possessing an unregistered silencer
(Count Three), 26 U.S.C. §§ 5841, 5861(d), 5871; and conspiring to obstruct
justice (Count Four), 18 U.S.C. §§ 371, 1503. We affirm.

* This disposition is not appropriate for publication and is not precedent except as
provided by Ninth Circuit Rule 36-3.
** The Honorable James Alan Soto, United States District Judge for the District of
Arizonarsitting-by-designatiom------------------------------------------------- -------------

(2 of 10)
Case: 18-30162, 03/10/2021, ID: 12030431, DktEntry: 74-1, Page 2 of 6

1. We reject Stanard’s argument that the district court erred in denying his
motion to suppress the evidence of the firearms and ammunition found in his house
and garage. Reviewing for clear error and drawing all inferences in favor of the
court’s decision, see United States v. Patayan Soriano, 361 F.3d 494, 501 (9th Cir.
2004), we conclude that the district court properly found that Stanard’s wife Anna
had voluntarily consented to show an officer, who was responding to a domestic
violence report against Stanard, the loaded pistol in the lockbox in the Stanards’
bedroom and the firearms and ammunition in the safe in their garage.
As the district court specifically found after considering the testimony at the
suppression hearing, Anna was treated by the officers as a victim rather than a
suspect; she was never in custody or handcuffed or threatened with arrest; and the
officers never drew their weapons on her. See United States v. Brown, 563 F.3d
410, 416 (9th Cir. 2009); Patayan Soriano, 361 F.3d at 504. Further, the officer
never told Anna that he “could obtain a search warrant if [she] refused to consent.”
United States v. Russell, 664 F.3d 1279, 1282 (9th Cir. 2012); see also Patayan
Soriano, 361 F.3d at 504. The court also noted that Anna was very cooperative
with the officers, leading them to the gun in the bedroom and then to the gun safe
in the garage and opening it. Although no Miranda warnings were given and Anna
was never expressly told that she could refuse to consent, those considerations do
not weigh against voluntariness in light of the officers’ treatment of her as a victim

2

(3 of 10)
Case: 18-30162, 03/10/2021, ID: 12030431, DktEntry: 74-1, Page 3 of 6

and her own cooperative attitude. While the district court recognized that Anna
was obviously emotional at the time, that was understandable given the
immediately preceding events, and the court reasonably concluded that,
considering all of the circumstances, that did not render her consent involuntary.
There was no clear error. See Patayan Soriano, 361 F.3d at 501.
2. Stanard also argues, for the first time on appeal, that the statutes underlying
Counts One through Three, see 18 U.S.C. § 922(g)(1) and 26 U.S.C. § 5861(d), exceed
the scope of Congress’s Commerce Clause authority under United States v. Lopez, 514
U.S. 549 (1995), and United States v. Morrison, 529 U.S. 598 (2000). We have held,
however, after the Supreme Court rendered its decisions in Lopez and Morrison, that
the prohibitions in 18 U.S.C. § 922(g) are a valid exercise of Congress’s authority
under the Commerce Clause. United States v. Latu, 479 F.3d 1153, 1156-257 (9th Cir.
2007). After Lopez, but before Morrison, we also held that 26 U.S.C. § 5861(d) is a
valid exercise of Congress’s taxing power. Hunter v. United States, 73 F.3d 260, 262
(9th Cir. 1996); cf. National Fed’n oflndep. Bus. v. Sebelius, 567 U.S. 519, 567 (2012)
(noting that the Court had upheld, under the taxing power, “such obviously regulatory
measures as taxes on . . . sawed-off shotguns” in Sonzinsky v. United States, 300 U.S.
506, 513 (1937)). In support of his contention that Latu and Hunter were wrongly
decided, Stanard points to the various dissents in United States v.

3

(4 of 10)
Case: 18-30162, 03/10/2021, ID: 12030431, DktEntry: 74-1, Page 4 of 6

Alderman, 565 F.3d 641 (9th Cir. 2009) (rejecting challenge under Lopez and
Morrison to 18 U.S.C. § 931, which criminalizes possession of body armor), reh’g
en banc denied, 593 F.3d 1141 (9th Cir. 2010), cert, denied, 562 U.S. 1163 (2011).
We are, of course, bound by the majority opinion in Alderman, whose reasoning
only further underscores that this three-judge panel lacks authority to reconsider
Latu or Hunter. See Miller v. Gammie, 335 F.3d 889, 900 (9th Cir. 2003) (en
banc).
3. Stanard contends that, under Rehaif v. United States, 139 S. Ct. 2191
(2019), the indictment in this case was deficient because it did not allege that he
had knowledge of his status as a felon, which is what made it unlawful for him to
possess the firearms and ammunition. Because Stanard did not raise this challenge
below, we review only for plain error, which requires Stanard to “show that
(1) there was an error, (2) the error is clear or obvious, (3) the error affected his
substantial rights, and (4) the error seriously affected the fairness, integrity, or
public reputation of judicial proceedings.” United States v. Johnson, 979 F.3d 632,
636 (9th Cir. 2020). Stanard cannot establish the third and fourth prongs of plain
error review because he cannot show that an error-free indictment would have led
to a different outcome here. See United States v. Benamor, 937 F.3d 1182, 1189
(9th Cir. 2019). Stanard stipulated that he had been previously convicted of a
felony, and the jury heard overwhelming testimony from the Stanards’ roommate,

4

(5 of 10)
Case: 18-30162, 03/10/2021, ID: 12030431, DktEntry: 74-1, Page 5 of 6

Anna, Anna’s mother, and Stanard himself that Stanard knew he was not permitted
to possess firearms or ammunition due to his prior felony conviction. There is no
reasonable probability that, but for the error, the outcome would have been any
different. Johnson, 979 F.3d at 638.
4. Finally, Stanard argues, for the first time on appeal, that his convictions
for being a felon in possession of a firearm and for being a felon in possession of
ammunition are multiplicitous. Reviewing for plain error, United States v. Zalapa,
509 F.3d 1060, 1064 (9th Cir. 2007), we reject this contention.
In United States v. Keen, 104 F.3d 1111 (9th Cir. 1996), we held that a
defendant may not be convicted and sentenced for multiple violations of 18 U.S.C.
§ 922(g)(1) based on the simultaneous possession of a firearm and its
accompanying ammunition. Id. at 1118-20. In a footnote, we reserved the
question whether the same rule would apply when a gun and its ammunition are
held in physically separate places. Id. at 1118 & n. 11. The record in this case
makes it highly unlikely that Keen’s rule was violated here. Using a special verdict
form for Count One, the jury concluded that Stanard possessed two different
firearms, an AR- 15-style rifle and a .380 caliber pistol. On a general verdict form
for Count Two, the jury concluded that Stanard possessed ammunition. The
uncontroverted evidence at trial established that the .380 pistol was stored in a
lockbox in the Stanards’ bedroom and the rifle was stored in the Stanards’ garage,

5

(6 of 10)
Case: 18-30162, 03/10/2021, ID: 12030431, DktEntry: 74-1, Page 6 of 6

which was a separate building that was freestanding from the house. The
uncontroverted evidence also established that ammunition for both weapons was
stored in the garage and that ammunition for the .380 pistol was stored with that
pistol in the house. Thus, regardless of whether the ammunition that was the basis
of the jury’s finding on Count Two related to the rifle or the .380 pistol, the jury
necessarily found that Stanard also possessed the other firearm. Therefore,
Stanard’s convictions for possession of a firearm and possession of ammunition
involve two different and separately chargeable violations of § 922(g)(1). See
Keen, 104 F.3d at 1118 n.l 1; United States v. Szalkiewicz, 944 F.2d 653, 653 (9th
Cir. 1991); United States v. Gann, 732 F.2d 714, 717, 721 (9th Cir. 1984). At a
minimum, there was no plain error that affected substantial rights and undermined
the fairness, integrity, or public reputation of the proceedings. Johnson, 979 F.3d
at 636.
AFFIRMED.

6

i

APPENDIX B

Case 2:16-cr-00320-RSM Document 155 Filed 07/13/18 Page 1 of 7
A0245B

(Rev. 11/16) Judgment in a Criminal Case
Sheet 1

United States District Court
Western District of Washington
UNITED STATES OF AMERICA
v.
ROBERT A. STANARD

JUDGMENT m A CRIMINAL CASE
Case Number:

2:16CR00320RSM-001

USM Number:

0S757-081

Gilbert Levy and Jennifer Kaplan
Defendant’s Attorney

THE DEFENDANT:
• □ pleaded guilty to count(s)
_________________________________ .
□ pleaded nolo contendere to count(s)_______________________________
which was accepted by the court.
m was found guilty on count(s) 1 through 4 of the Superseding Indictment
after a plea of not guilty.
The defendant is adj udicated guilty of these offenses:
Title & Section
18 U.S.C. §922(g)(l)
18 U.S.C. §922(g)(1)
18 U.S.C. §5861(d)
18 U.S.C. §371

Nature of Offense
Felon in Possession of a Firearm
Felon in Possession of Ammunition
Possession of an Unregistered Firearm
Conspiracy to Obstruct of Justice

Offense Ended
10/29/16
10/29/16
10/29/16
01/11/18

Count
1
2
3 '
4

The defendant is sentenced as provided in pages 2 through 7 of this judgment. The sentence is imposed pursuant to
the Sentencing Reform Act of 1984.
□ The defendant has been found not guilty on count(s)
-________ ;_______________________________
□
are
dismissed
on the motion of the United States.
□ is
□ Count(s)
It is ordered that the defendant must notify the United States attorney lor this district within 30 days of any change of name, residence,
or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If ordered to pay
restitution, the defendant must notify the court and United States Attorney of matgrjal-changes^n econo™''

AhC53—

Assistant United States Attorney

aft-fog~ 20< Rs\

Date of Im

Signature oi

The Honorable Ricardo. S. Martinez
Chief United States District Judge
Name and Title of Judge
Date

^

Case 2:16-cr-00320-RSM Document 155 Filed 07/13/18 . Page 2 of 7
A0245B

(Rev. 11/16) Judgment in a Criminal Case
Sheet 2 — Imprisonment
Judgment — Page 2 of 7

DEFENDANT:
CASE NUMBER:

ROBERT A. STANARD
2:16CR00320RSM-001
IMPRISONMENT

The defendant is hereby committed to the custody of the United States Bureau of Prisons to he imprisoned for a total term of:

.%L| ma/\~/~hs

CvAS~fecty

fe-A-A'fs .12-^3

(& 0 MS /\ -fh S .
C'AS'focly
O ■A C^
JS^The court makes the following recommendations to the Bureau of Prisons: ^
(A-' i ' Fiy

cx'h

Fl>c Scotia c

F>r

^*1

(?) ctA-i “Ho.-i a I

0

The defendant is remanded to the custody of the United States Marshal.

□

The defendant- shall surrender to the United States Marshal for this district:

□ at

□ a.m.

□ p.m. on

j

i

i

aW

r"v
ca-tov fCV\
"/"S ^ c ka ^; a

V
■ZL^Tiy

ft-

"fti | (c) V-Tt ^
O-P

_______________

□ as notified by the United States Marshal.
D

The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:
□ before 2 p.m. on______________________ □ as notified by the United States Marshal.
□ as notified by the Probation or Pretrial Services Office.
RETURN

I have executed this judgment as follows:

to

Defendant delivered oh
at

, with a certified copy of this judgment.

UNITED STATES MARSHAL
By
DEPUTY UNITED STATES MARSHAL

‘•'Wf/-

Case 2:16-cr-00320-RSM Document 155 Filed 07/13/18 Page 3 of 7
A0245B

(Rev. 11/16) Judgment in a Criminal Case .
Sheet 3 — Supervised Release
Judgment — Page 3 of 7

DEFENDANT:
CASE NUMBER:

ROBERT A. STANARD
2:16CR00320RSM-001
SUPERVISED RELEASE

Upon release from imprisonment, you will be on supervised release for a term of:
7~Arce- y g—a y"

1.
2.
3.

4.
5.
6;
7.

MANDATORY CONDITIONS
You must not commit another federal, state or local crime.
You must not unlawfully possess a controlled substance.
You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days
of release from imprisonment and at least two periodic drug tests thereafter, as determined by the court.
□ The above drug-testing condition is suspended, based on the court’s determination that you pose a low risk of
future substance abuse, (check ifapplicable)
□ You must make restitution in accordance with 18 U.S.C. §§ 3663 and 3663A or any other statute authorizing a sentence
of restitution, (check ifapplicable)
13 You must cooperate in the collection ofDNA as directed by the probation officer, (check ifapplicable)
□ You must comply with the requirements of the Sex Offender Registration and Notification Act (34 U.S.C.
§ 20901, et seq.) as directed by the probation officer, the Bureau of Prisons, or any state sex offender registration
agency in which you reside, work, are a student, or were convicted of a qualifying offense. (check#applicable)
□ You must participate in an approved program for domestic violence, (check fapplicable)

You must comply with the standard conditions that have been adopted by this court as well as with any additional
conditions on the attached pages.

Case 2:16-cr-00320-RSM Document 155 Filed 07/13/18 Page 4 of 7
A0245B

(Rev. 11 /i 6) Judgment in a Criminal Case
Sheet. 3A — Supervised Release
Judgment... Page 4 of 7

DEFENDANT:
ROBERT A. STANARD
CASE NUMBER: 2:16CR00320RSM-001
STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply with the following standard conditions of supervision. These
conditions are imposed because they establish the basic expectations for your behavior while on supervision and identify
the minimum tools needed by probation officers to keep informed, report to the court about, and bring about improvements
in your conduct and condition.
1.
2.
3.
4.
5.

6.
7.

8.
9.
10.
11.
12.
13.

You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours
of your release from imprisonment, unless the probation officer instructs you to report to a different probation office or
within a different time frame.
After initially reporting to the probation office, you will receive instructions from the court or the probation officer about
how and when you must report to the probation officer, and you must report to the probation officer as instructed.
You must not knowingly leave the federal judicial district where you are authorized to reside without first getting
permission from the court or the probation officer.
You must answer truthfully the questions asked by your probation officer.
You must live at a place approved by the probation officer. If you plan to change where you live or anything about your
living arrangements (such as the people you live with), you must notify the probation officer at least 10 days before the
change. If notifying the probation officer in advance is not possible due to unanticipated circumstances, you must notify
the probation officer within 72 hours of becoming aware of a change or expected change.
You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the
probation officer to take any items prohibited by the conditions of your supervision that he or she observes in plain view.
You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer
excuses you from doing so. If you do not have full-time employment you must try to find full-time employment, unless
the probation officer excuses you from doing so. If you plan to change where you work or anything about your work
(such as your position or your job responsibilities), you must notify the probation officer at least 10 days before the
change. If notifying the probation officer at least 10 days in advance is not possible due to unanticipated circumstances,
you must notify the probation officer within 72 hours of becoming aware of a change or expected change.
You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone
has been convicted of a felony, you must not knowingly communicate or interact with that person without first getting
the permission of the probation officer.
If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e.,
anything that was designed, or was modified for, the specific purpose of causing bodily injury or death to another person
such as nunchakus or tasers).
You must not act or make any agreement with a law enforcement agency to act as a confidential human source or
informant without first getting the permission of the court.
If the probation officer determines that you pose a risk to another person (including an organization), the probation
officer may require you to notify the person about the risk and you must comply with that instruction. The probation
officer may contact the person and confirm that you have notified the person about the risk.
You must follow the instructions of the probation officer related to the conditions of supervision.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a written copy
of this judgment containing these conditions. For further infomiation regarding these conditions, see Overview ofProbation
and Supervised Release Conditions, available at www.uscourts.gov.
Defendant’s Signature

Date

Case 2:16-cr-00320-RSM Document 155 Filed 07/13/18 Page 5 of 7
A0245B

(Rev. 11/16) Judgment in a Criminal Case
Sheet 3D..- Supervised Release
Judgment —Page 5 of 7

DEFENDANT:
CASE NUMBER:

ROBERT A. STANARD
2:16CR00320RSM-001
SPECIAL CONDITIONS OF SUPERVISION

1. The defendant shall participate as instructed by die U.S. Probation Officer in a program approved by the
. probation office for treatment of narcoti c addiction, drug dependency, or substance abuse, which may
include testing to deiennine if defendant has reverted to the use of drugs or alcohol. The defendant shall
also abstain from the use of alcohol and/or other intoxicants during the term of supervision. Defendant
must contribute towards the cost of any programs, to the extent defendant is financially able to do so, as
determined by the U.S. Probation Officer. In addition to urinalysis testing that may be a part of a formal
drug treatment program, the defendant shall submit up to eight (8) urinalysis tests per month.
2f The defendant shall provide the probation officer with access to any requested financial information
including authorization to conduct credit checks and obtain copies of the defendant's federal income tax
returns.
3. The defendant shall maintain a single checking account in his or her name. The defendant shall deposit
into this account all income, monetary gains, or other pecuniary proceeds, and make use of this account
for payment of all personal expenses. This account, and all other bank accounts, must be disclosed to the
probation office.
4. The defendant shall participate as directed in the Moral Reconation Therapy program approved by the
United States Probation and Pretrial Services Office. The defendant must contribute towards the cost of
any programs, to the extent the defendant is financially able to do so, as determined by the U.S. Probation
Officer.
5. The defendant shall submit his or her person, property, house, residence, storage unit, vehicle, papers,
computers (as defined in 18 U.S.C. § 1030(e)(1)), other electronic communications or data storage
devices or media, or office, to a search conducted by a United States probation officer, at a reasonable
time and in a reasonable manner, based upon reasonable suspicion of contraband or evidence of a
violation of a condition of supervision. Failure to submit to a search may be grounds for revocation. The
defendant shall warn any other occupants that the premises may be subject to searches pursuant to this
condition.

Case 2:16-cr-00320-RSM Document 155 Filed 07/13/18 Page 6 of 7
A0245B

(Rev. 11/16) Judgment in a Criminal Case
Sheet 5 — Criminal Monetary Penalties
Judgment—Page 6 of 7

DEFENDANT: . ROBERT A. STANARD
CASE NUMBER: 2:16CR00320RSM-001
CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.

TOTALS

Assessment
$ 400

JVTA Assessment*
N/A

Restitution
N/A

Fine
Waived

. Ail Amended Judgment in a Criminal Case (AO 245C)

□

The determination of restitution is deferred until
will he entered after such determination.

□

The defendant must make restitution (including community restitution) to the following payees in the amount listed below.
If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment, unless specified
otherwise in the priority order or percentage payment column below. However, pursuant to 18 U.S.C. § 3664(i), all nonfederal
victims must be paid before the United States is paid.

Name of Payee

TOTALS

Total Loss*

Restitution Ordered

$ 0.00

$ 0.00

Priority or Percentage

□

Restitution amount ordered pursuant to plea agreement $

'_____________________

□

The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before
the fifteenth day after the date of the judgment, pursuant to 18U.S.C. § 3612(1). All of the payment options on Sheet 6 may be
subject to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).

□

The court determined that the defendant does not have the ability to pay interest and it is ordered that:
□ restitution
□ the interest requirement is wai ved for the □ fine
□ restitution is modified as follows:
□ the interest requirement for the □ fine

[xj

The court finds the defendant is financially unable and is unlikely to become able to pay a fine and, accordingly, die imposition
of a fine is waived.
* Justice for Victims of Trafficking Act of 2015, Pub. L. No. 114-22.
** Findings for the total amount of losses are required under Chapters 109A, 110,110A, and 113A of Title 18for
offenses committed on or after September 13,1994, but before April 23, 1996.

Case 2:16-cr-00320-RSM Document 155 Filed 07/13/18 Page 7 of 7

t
AOS45B

(Rev. 11/16) Judgment in a Criminal Case
Sheet 6 — Schedule of Payments
Judgment — Page 7 of 7

DEFENDANT:
CASE NUMBER:

ROBERT A. STANARD
2:16CR00320RSM-001
SCHEDULE OF PAYMENTS

Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as follows:
0

PAYMENT IS DUE IMMEDIATELY. Any unpaid amount shall be paid to
Clerk's Office, United States District Court, 700 Stewart Street, Seattle, WA 98101.
0

During the period of imprisonment, no less than 25% of their inmate gross monthly income or $25.00 per quarter,
whichever is greater, to be collected and disbursed in accordance with the Inmate Financial Responsibility Program.

HI

During the period of supervised release, in monthly installments amounting to not less than 10% of the defendant's gross
monthly household income, to commence 30 days after release from imprisonment.

□

During the period of probation, in monthly installments amounting to not less than 10% of the defendant's gross monthly
household income, to commence 30 days after the date of this judgment.

The payment schedule above is the minimum amount that the defendant is expected to pay towards the monetary
penalties imposed by the Court. The defendant shall pay more than the amount established whenever possible. The
defendant must notify the Court, the United States Probation Office, and the United States Attorney’s Office of any
material change in the defendant's financial circumstances that might affect the ability to pay restitution.
Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary
penalties is due during the period of imprisonment. All criminal monetary penalties, except those payments made through
the Federal Bureau of Prisons’ Inmate Financial Responsibility Program are made to the United States District Court,
Western District of Washington. For restitution payments, the Clerk of the Court is to forward money received to the
party(ies) designated to receive restitution specified on the Criminal Monetaries (Sheet 5) page.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.
□

Joint and Several
Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and Several
Amount, and corresponding payee, if appropriate.

□

The defendant shall pay the cost of prosecution.

□

The defendant shall pay the following court cost(s):

0

The defendant shall forfeit the defendant’s interest in the following property to the United States:
See Preliminary Order of Forfeiture (ECF No. 141).

Payments shall be applied in the Following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal,
(5) fine interest, (6) community restitution, (7) JVTA Assessment, (8) penalties, and (9) costs, including cost of prosecution and court costs.

